              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR



                                                                                           August 5, 2014

Memorandum

To:            Eric Eisenstein
               Division Chief, Internal Control and Audit Follow-up
               Office of Financial Management     Jl A.-
From:          Michael P. Colombo         d •/1ft C/U V
               Western Regional M~or Audits, Inspections, and Evaluations

Subject:       Verification Review of Recommendations for the Joint Evaluation/Investigation
               Report, "Immediate Action Needed to Stop the Inappropriate Use of Cooperative
               Agreements in BLM's Helium Program" (WR-IV -BLM-0003-2008/01-C0-07-
               0206-1, August 2008)
               Report No. WR-VS-BLM-0004-2014

        The U.S. Department of the Interior (DOl) Office oflnspector General (OIG) has
completed a verification review of the five recommendations presented in the subject
evaluation/investigation report. The objective of the verification was to determine whether the
Bureau of Land Management (BLM) implemented the recommendations as reported to the
Office of Financial Management (PFM), Office of Policy, Management and Budget. PFM
reported to OIG when BLM had addressed and provided supporting documentation for each of
the five recommendations in the subject report. Based on our verification, we concur that all
recommendations are resolved and implemented.

Background

       Our August 19, 2008 evaluation/investigation report, "Immediate Action Needed to Stop
the Inappropriate Use of Cooperative Agreements in BLM's Helium Program," contained five
recommendations pertaining to the inappropriate use of cooperative agreements, overcharging,
possible double billing, costly short-term financing, and unjustified allocating of equipment
costs.

       In a memorandum dated September 19, 2008, BLM stated that it would seek counsel
from the Office of the Solicitor and obtain services from an independent consulting firm to
review all the records described in the OIG report, the financial transactions relating to the
Helium Fund from Fiscal Years 2000 through 2008, and the OIG report findings and
recommendations.




                         Office of Audits, Inspections, and Evaluations I Sacramento, CA
        On May 18, 2009, the BLM provided its response to the recommendations and the
actions it planned to take. BLM did not concur with Recommendations 1, 2, 4, and 5, but
concurred with Recommendation 3. On July 6, 2010, PFM reported all recommendations had
been implemented and closed stating that it believed that BLM took the necessary steps to
warrant closure by having independent reviews done by the Office of the Solicitor and the Office
of Policy Analysis (PPA).

       On October 18, 2010, the OIG issued a related inspection report “Follow-up to Office of
Policy Analysis Report, ‘Review of Selective Aspects of the Federal Helium Program,’ June
2010” (WR-IN-BLM-0003-2010). This report included recommendations that covered all of the
recommendations of the 2008 report except Recommendation 1.

Scope and Methodology

        The scope of this review was limited to determining whether BLM took action to
implement our recommendations of the August 2008 report. To accomplish our objective, we
reviewed the supporting documentation that BLM and PFM provided and discussed actions
taken relating to each of the five recommendations.

        We did not perform any site visits or conduct fieldwork to determine whether BLM had
corrected the underlying deficiencies we initially identified. As a result, this review was not
conducted in accordance with the Generally Accepted Government Auditing Standards issued by
the Comptroller General of the United States or the Quality Standards for Inspection and
Evaluation as set forth by the Council of the Inspectors General on Integrity and Efficiency.

Results of Review

       We determined that all five recommendations have been implemented.

       Recommendation 1: Immediately stop the renewal of both cooperative agreements and
       replace them with appropriate contract(s).

        Action Taken: BLM did not concur with the recommendation. As a result, it requested
the help of the Department’s Office of the Solicitor to determine whether it had the legal
authority to use a cooperative agreement under the Helium Privatization Act of 1996. The Office
of the Solicitor concluded that BLM had the authority to use a cooperative agreement. Based on
the legal review of the Office of the Solicitor, we conclude that Recommendation 1 has been
resolved and implemented.

       Recommendation 2: Choose the proper contractual instrument using appropriate
       procurement guidelines. This includes a) reviewing and properly establishing indirect
       cost rates, processes for appropriate billing, clear guidelines as to what is to be considered
       major maintenance and when work is to be considered outside the scope of the contract;
       b) adjusting the ratio of costs to reflect the percentage of ownership in the assets as they
       change over time; and c) performing a critical review of profit fees.



                                                 2
        Action Taken: BLM responded that it did not concur with the recommendation because
it disagreed that the use of a cooperative agreement was improper. It hired an independent
contractor Kforce Government Solutions (KGS) to perform a review of the report contents and
recommendations. KGS concluded that it did not find improper indirect costs, inappropriate
billing processes, or double billing of major maintenance.

        BLM disagreed with the recommendation to adjust the ratio of costs to reflect the
percentage of ownership in the assets as they change over time because the Government owned
the majority of the other gases. This reflected 80 percent of the gases at Bush Dome Reservoir
while helium reflected 20 percent of the gases and had mixed ownership. Even as the helium was
sold, the Government would hold the majority of the benefits and therefore would pay the
majority of the costs of operation.

        A review conducted by the PPA concluded that the investment fees were not excessive,
and it did not find any cases of double billing. However, it agreed with the OIG report that major
maintenance could have been defined better, and the ratio of ownership needed to be revisited.

       Based on the reviews conducted by KGS and PPA and because the OIG conducted a
follow-up review in 2010 with a similar recommendation, we conclude that Recommendation 2
has been resolved and implemented.

       Recommendation 3: Perform a thorough review of all agreement costs paid to determine
       allowability and appropriateness and recoup those costs determined to be unallowable or
       inappropriate, including any double billed costs.

        Action Taken: BLM reported that the recommendation was implemented on
November 6, 2008, as it hired an independent contractor KGS to conduct a review of the report
recommendations. The KGS review did not find any cases of double billing or issues with the
cost allocations.

       PPA also conducted a review of the OIG report findings and did not find clear cases of
double billing.

       Based on the reviews conducted by KGS and PPA and because the OIG conducted a
follow-up review in 2010 which had a similar recommendation, we conclude that
Recommendation 3 has been resolved and implemented.

       Recommendation 4: Review the BLM/contractor payment billing process and
       implement a process that eliminates any repetition of the existing arrangement.

        Action Taken: BLM reported that it completed the first part of the recommendation by
conducting a review of their billing process but did not concur with the second part of the
recommendation which was to implement a billing process that eliminates any repetition in the
existing arrangement. BLM stated that it would continue to follow the procurement, payment,
and billing processes available under Federal, DOI, and BLM rules, regulations, and policies.
BLM stated that the OIG depiction of the billing process in the report was incorrect, so it


                                                3
provided a diagram of the correct process. BLM stated it would take action to eliminate the
perception of providing cash flow to the Cliffside Refiners Limited Partnership (CRLP).

      PPA’s review of the billing process did not find any issues with the billing process but
recommended BLM be more transparent in its process and arrangements with the CRLP.

       Based on the reviews conducted by BLM and PPA and because the OIG conducted a
follow-up review in 2010 which had a similar recommendation, we conclude that
Recommendation 4 has been resolved and implemented.

       Recommendation 5: Determine whether the Government has already reimbursed the
       contractor for the entire amount of actual costs incurred to build the equipment. If so, the
       new contractual instrument should not include these capital cost line items.

        Action Taken: BLM responded that they did not concur with the recommendation. KGS
conducted a review to determine if CRLP recouped its cost for designing and building the
equipment, and it reported that BLM has reimbursed CRLP for the full amount of the equipment
plus an investment fee which would last for the duration of the 15-year cooperative agreement.

        PPA’s review concluded that it agreed with the OIG report that BLM could have
provided the initial capital costs of $22 million to construct the Crude Helium Enrichment Unit.
It believed the risks to CRLP were relatively low. It also concluded that the investment fee was
not excessive.

       Based on the reviews done by KGS and PPA and because the OIG conducted a follow-up
review in 2010 which had a similar recommendation, we conclude that Recommendation 5 has
been resolved and implemented.

Conclusion

       We informed BLM officials of the results of this review. On July 31, 2014, they agreed
with the results of our review and declined to have an exit conference.

       If you have any questions about this report, please contact me at 916-978-5653.

cc:    Neil Kornze, Director, Bureau of Land Management
       Nancy Thomas, Liaison Officer, Office of Financial Management
       Patrick McHugh, Liaison Officer, Office of Financial Management
       LaVanna Stevenson, Liaison Officer, Bureau of Land Management




                                                 4
